Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




      MEDICARE AND
   BENEFICIARIES COULD
   REALIZE SUBSTANTIAL
    SAVINGS IF THE DRG
  WINDOW WERE EXPANDED




                    Daniel R. Levinson
                     Inspector General

                      February 2014
                     OEI-05-12-00480
EXECUTIVE SUMMARY: MEDICARE AND BENEFICIARIES COULD REALIZE
SUBSTANTIAL SAVINGS IF THE DRG WINDOW WERE EXPANDED
OEI-05-12-00480

WHY WE DID THIS STUDY

The “DRG window” policy defines when outpatient services related to inpatient admissions are not
paid for separately, but rather are considered to be included in the inpatient lump-sum payment.
(This payment is known as the Medicare Severity Diagnosis Related Group (DRG) payment, hence
the term “DRG window.”) Under the current DRG window, Medicare and beneficiaries do not pay
separately for related outpatient services delivered within 3 days of an inpatient admission in a
setting owned by the admitting hospital. Services that are provided by hospitals that share a
common owner (i.e., multiple hospitals owned by the same corporation, hereinafter called affiliated
hospitals) are not subject to the DRG window.

HOW WE DID THIS STUDY

We used 2010 and 2011 claims to identify the number of related outpatient services delivered both
on the days prior to the DRG window at settings owned by admitting hospitals and on the days prior
to the inpatient admission at affiliated hospital groups. We also used 2010 and 2011 claims to
calculate the amounts Medicare and beneficiaries paid for these services.

WHAT WE FOUND

Medicare and beneficiaries could realize substantial savings if the DRG window were expanded. In
2011, Medicare and beneficiaries paid an estimated $263 million for 4.3 million related outpatient
services provided at settings owned by admitting hospitals in the 11 days prior to the DRG window.
Medicare and beneficiaries could also realize savings if the DRG window were applied to other
hospital ownership structures. In 2011, Medicare and beneficiaries paid an estimated $45 million
for 777,000 related outpatient services provided at hospitals affiliated with, but not owned by,
admitting hospitals during the 3 days prior to inpatient admissions. Finally, Medicare and
beneficiaries could realize additional savings if an expanded DRG window were applied to other
hospital ownership structures. In 2011, Medicare and beneficiaries paid an estimated $10 million
for 157,000 related outpatient services provided at affiliated hospitals during the 11 days prior to the
start of the DRG window.

WHAT WE RECOMMEND

DRG payments include many related outpatient services, but millions of related outpatient services
are being paid for as separate services, even when they are provided in settings owned by admitting
hospitals or at affiliated hospitals. To better ensure that more related outpatient services are covered
by the DRG window, we recommend that CMS seek legislative authority to (1) expand the DRG
window to include additional days prior to the inpatient admission and (2) expand the DRG window
to include other hospital ownership arrangements, such as affiliated hospital groups. CMS did not
concur with either recommendation.
                  TABLE OF CONTENTS

                  Objectives ....................................................................................................1 

                  Background ..................................................................................................1 

                  Methodology ................................................................................................5 

                  Findings......................................................................................................12 

                             Medicare and beneficiaries could realize substantial savings if the 

                             DRG window were expanded ........................................................12 

                             Medicare and beneficiaries could realize savings if the DRG 

                             window were applied to other hospital ownership structures ........15 

                  Conclusion and Recommendations ............................................................18 

                             Agency Comments and Office of Inspector General Response.....20 

                  Appendixes ................................................................................................21 

                             A: Types of Inpatient and Outpatient Diagnosis Code Matches ...21 

                             B: Related Outpatient Services Provided at Settings Owned by 

                             Admitting Hospitals .......................................................................22 

                             C: Related Outpatient Services Provided at Affiliated Hospitals .24 

                             D: Agency Comments ...................................................................26 

                  Acknowledgments......................................................................................28 





Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)
                  OBJECTIVE
                  To determine how much money Medicare and its beneficiaries paid in
                  2011 for services related to inpatient admissions but not captured by the
                  current DRG window policy.

                  BACKGROUND
                  The “DRG window” policy defines when outpatient services related to an
                  inpatient admission are not paid for separately, but rather are considered
                  part of the inpatient lump-sum payment. 1, 2 This lump-sum payment,
                  known as the Medicare Severity Diagnosis Related Group (hereinafter
                  referred to as the “DRG”) payment, represents all operating costs
                  associated with the inpatient admission, including costs for routine nursing
                  services, radiology services, and laboratory services.3
                  DRG Window Criteria
                  If a Medicare beneficiary receives an outpatient service just prior to an
                  inpatient admission, Medicare considers the service to be an extension of
                  the inpatient admission and does not pay for it separately. Generally,
                  Medicare does not pay separately for outpatient services so long as the
                  services are (1) delivered within 3 days of an inpatient admission in an
                  acute care hospital, (2) related to the upcoming inpatient admission, and
                  (3) delivered in a setting wholly owned or operated by the admitting
                  hospital.4 Payment for these outpatient services is included in the DRG
                  payment for the inpatient admission.
                  Preadmission Services Delivered More Than 3 Days Before the
                  Inpatient Admission
                  Although Congress determined that the DRG window should include
                  services delivered within 3 days of the inpatient admission, 3 days is not a
                  medical standard. The medical community has identified benefits to
                  providing certain preadmission services weeks and sometimes months
                  prior to an inpatient stay, notably for surgical inpatient admissions. For
                  example, hematology experts from Stanford University encourage
                  physicians to provide diagnostic services 30 days prior to a surgery.

                  1
                    Ambulance services and maintenance renal dialysis services are the only outpatient
                  services excluded from this rule. The Centers for Medicare & Medicaid Services (CMS)
                  separately pays for ambulance services and maintenance renal services and never bundles
                  these services into the DRG payment.
                  2
                    Certain hospitals (such as psychiatric hospitals, rehabilitation hospitals, and children’s
                  hospitals) are subject only to a 1-day DRG window. Social Security Act §§ 1886(a)(4)
                  and (d)(1)(B).
                  3
                    42 CFR § 412.2(c).
                  4
                    Ibid.

Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                     1
                  They claim this timeframe enables physicians to better identify and
                  manage blood diseases such as anemia.5 Similarly, physicians from Yale
                  University state that certain diagnostic services could be delivered 30 (and
                  sometimes 90 or 180) days prior to a surgery.6
                  Services Related to the Inpatient Admission
                  Preadmission services can be either diagnostic or nondiagnostic.
                  Diagnostic services are used to make diagnoses and include services such
                  as laboratory testing and imaging services. Nondiagnostic services are
                  used to treat diseases and include services such as minor surgical
                  procedures. CMS defines diagnostic services using specific revenue codes
                  and Current Procedural Terminology (CPT) codes.7, 8 All services that
                  CMS does not define as diagnostic are considered nondiagnostic.
                  CMS uses different methods to determine whether diagnostic or
                  nondiagnostic services are related to an inpatient admission. The agency
                  considers all diagnostic services performed within 3 days of an inpatient
                  admission to be related to the inpatient admission.9 CMS considers all
                  nondiagnostic services performed within 3 days of an inpatient admission
                  to be related to the inpatient admission, unless the hospital indicates on the
                  claim that the service is unrelated.10
                  Settings Subject to the DRG Window
                  Three types of settings are subject to the current DRG window: settings
                  that are wholly owned by admitting hospitals, settings that are wholly
                  operated by admitting hospitals, and admitting hospitals themselves.
                  A setting is wholly owned by the hospital if the hospital is the sole
                  owner.11 An example of a setting that is wholly owned is an outpatient
                  clinic that is owned by a hospital.
                  A setting is wholly operated by the hospital if the hospital has exclusive
                  responsibility for conducting and overseeing the setting’s routine
                  operations, regardless of whether the hospital also has policymaking


                  5
                    L.T. Goodnough, et al., “Management of preoperative anaemia in patients undergoing
                  elective surgery,” ISBT Science Series, Vol. 5, pp. 120–124, 2010. 

                  6
                    Thomas M. Halaszynski, M.D., et al., “Optimizing postoperative outcomes with 

                  efficient preoperative assessment and management,” Critical Care Medicine, Vol. 32,

                  No. 4, 2004. 

                  7
                    Revenue codes describe hospital accommodations and services. CPT codes are a set of 

                  codes, descriptions, and guidelines that describe procedures and services performed by

                  physicians and other qualified health care providers.

                  8
                    CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 3 § 40.3.

                  9
                    42 CFR § 412.2(c)(5)(ii). 

                  10
                     42 CFR § 412.2(c)(5)(iv).

                  11
                     42 CFR § 412.2(c)(5)(i). 


Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                2
                  control over the setting.12 An example of a wholly operated setting is a
                  hospital-operated physician office. See Figure 1 for an example of
                  settings wholly owned or operated by a hospital.


                  Figure 1: Example of Settings Wholly Owned or Operated by a Hospital




                  Source: Office of Inspector General (OIG) interpretation of CMS definition of “wholly owned or operated.”

                  For the remainder of this report, we will refer to all three of these settings
                  (wholly owned by the admitting hospital, wholly operated by the
                  admitting hospital, and the admitting hospital itself) as “owned by
                  admitting hospitals.”
                  CMS uses different methods to determine whether hospital outpatient
                  settings or physicians’ offices are owned by admitting hospitals. For
                  hospital outpatient settings, CMS staff said they use an identification
                  number unique to each hospital to identify claims where the outpatient
                  setting is owned by the admitting hospital. In July 2012, CMS began
                  requiring physicians’ offices to indicate whether the offices are owned by
                  the admitting hospital when billing for a service that is subject to the DRG
                  window policy.13 Physicians’ offices indicate this by placing a modifier on
                  the claim.

                  12
                    Ibid. 

                  13
                    CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 12 §§ 90.7 and

                  90.7.1.

Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                       3
                  Other Hospital Ownership Structures
                  The current DRG window does not apply to at least one common
                  ownership structure: hospitals that are owned by the same organization
                  (hereinafter called affiliated hospitals).14
                  Affiliated hospitals make up an increasing portion of the current hospital
                  market. In 2011, almost half of all acute-care hospitals and critical access
                  hospitals reported being part of a chain organization.15 Further, an analysis
                  of hospital acquisitions found that hospital consolidation had increased
                  from 2009 to 2011.16 See Figure 2 for an example of a group of affiliated
                  hospitals.
                  Figure 2: Example of a Group of Affiliated Hospitals




                                                             Corporation




                                                                                                   Outpt
                                                                                                   clinic

                                                             Not wholly owned or 
                                                                  operated                                      Outpt
                         Outpt                                                                     Owns
                         clinic                                                                                 clinic
                                                                                           Hospital 
                                           Hospital                                           B
                                              A
                                                                                 Outpt
                                                        Outpt                    dept                       Doc’s 
                          Doc’s                         dept                                                office
                          office


                                  Wholly owned or operated                            Wholly owned or operated




                  Source: OIG interpretation of CMS definition of “wholly owned or operated” and “not wholly owned or operated.”

                  Related Reports
                  OIG has a body of work related to the DRG window, spanning over
                  20 years. In this body of work, OIG has documented savings for Medicare
                  if the DRG window were expanded beyond 3 days. In 1994, OIG found
                  that Medicare and its beneficiaries could save a total of $121 million on
                  hospital outpatient services if Medicare expanded the DRG window to
                  14
                     76 Fed. Reg. 73026, 73286 (Nov. 28, 2011).
                  15
                     OIG analysis of fiscal year (FY) 2011 cost reports. We considered an organization to

                  be a “chain organization” if it owned more than one hospital.

                  16
                     Irving Levin Associates Inc., The Health Care Acquisition Report: 18th Edition, 2012.


Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                            4
                  7 days prior to an inpatient admission.17 In 2003, OIG found that
                  Medicare and Medicare beneficiaries could save a total of $72 million on
                  hospital outpatient services for 10 select DRGs if the DRG window were
                  expanded to 14 days.18
                  In both reports, OIG recommended that CMS consider seeking legislative
                  authority to expand the DRG window. CMS concurred with this
                  recommendation in 2003. However, CMS has not sought legislative
                  authority to expand the DRG window beyond 3 days.

                  METHODOLOGY
                  We analyzed inpatient and outpatient claims and Medicare cost reports to
                  identify how much Medicare and beneficiaries paid in 2011 for services
                  related to inpatient admissions but not captured by the current DRG
                  window policy. We included two types of services not captured by the
                  current DRG window policy in our analysis: (1) those provided in settings
                  owned by admitting hospitals on the days preceding the start of the DRG
                  window and (2) those provided by hospitals affiliated with, but not owned
                  by, admitting hospitals on the days preceding the inpatient admissions.
                  Scope
                  For this evaluation, we analyzed related services delivered in hospital
                  outpatient settings. We did not analyze related services delivered in
                  physicians’ offices, as we were unable to confidently determine which
                  physicians’ offices were owned by admitting hospitals in 2011.
                  Sample Selection
                  The population we sampled consisted of all inpatient admissions to
                  acute-care hospitals in the 2011 inpatient Standard Analytic File (SAF)
                  that met the following four conditions:
                       1.	 The hospitals were subject to the 3-day DRG window (i.e., we
                           excluded hospitals subject only to a shorter, 1-day DRG window,
                           such as psychiatric hospitals, and hospitals not subject to any DRG
                           window policy, such as critical access hospitals).19, 20

                  17
                     OIG, Expansion of the Diagnosis Related Group Payment Window, A-01-92-00521,
                  July 1994. 

                  18
                     OIG, Expansion of the Diagnosis Related Group Payment Window, A-01-02-00503, 

                  August 2003. 

                  19
                     Hospitals that were not subject to any DRG window policy were excluded from our
                  analysis only when we identified inpatient admissions. They were included in our
                  analysis when we searched for related outpatient services. Hospitals that were subject to
                  a shorter, 1-day DRG window were not included when we searched for either inpatient
                  admissions or related outpatient services.
                  20
                     Critical access hospitals are small rural hospitals that are paid 101 percent of their
                  reasonable costs for most inpatient and outpatient services.

Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                   5
                       2.	 The hospitals were located in one of the 50 U.S. States or 

                           Washington, D.C. 

                       3.	 The beneficiaries were not enrolled in a Medicare managed-care
                           plan.
                       4. Medicare paid for the admission.
                  The population consisted of 10.6 million inpatient admissions and
                  6.6 million Medicare beneficiaries. From this population, we selected a
                  sample of 76,742 beneficiaries associated with 122,868 inpatient
                  admissions by selecting all claims for approximately 1 percent of
                  beneficiaries, using the eighth and ninth digits of the beneficiaries’
                  Medicare numbers to identify members of our sample. We treated this
                  sample as a simple random sample to make population estimates.
                  Data Collection
                  Standard Analytic File. We used the 2010 and 2011 outpatient SAF to
                  identify outpatient services delivered up to 14 days prior to the inpatient
                  admissions in our sample. We also used the 2010 and 2011 outpatient
                  SAF to describe the types of related outpatient services provided outside
                  the DRG window.
                  Medicare cost reports. We used FY 2011 cost-report data to identify
                  groups of affiliated hospitals.21
                  Data Analysis
                  Identifying related outpatient services provided at settings owned by
                  admitting hospitals outside the DRG window. We used the following steps
                  to identify related outpatient services provided at settings owned by
                  admitting hospitals outside the DRG window:
                       1.	 We identified all 2011 acute care inpatient admissions subject to
                           the DRG window.
                       2.	 Using these inpatient admissions, we identified any outpatient
                           services delivered between 4 and 14 days prior to an inpatient
                           admission to the same beneficiary. We selected this timeframe
                           because OIG had previously recommended expanding the DRG
                           window to 14 days prior to the inpatient admission. We performed
                           this analysis using the Medicare number, date of admission for the




                  21
                    Hospitals submit cost reports based on their fiscal years rather than calendar years.
                  Because the start of fiscal years varies across hospitals, cost reports are submitted at
                  different times.

Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                      6
                           inpatient claim, and the date of service for the corresponding line
                           item on the outpatient claim.22
                       3.	 Next, for these outpatient services, we determined whether they
                           were provided at settings owned by admitting hospitals. We did
                           this by using an exact match of the hospital identification number
                           on the outpatient and inpatient claims. According to CMS staff,
                           the agency uses the hospital identification number in its claims
                           processing systems to determine whether claims submitted during
                           the DRG window were performed at outpatient settings owned by
                           admitting hospitals.
                       4.	 Using the same outpatient services identified previously, we
                           determined whether these services were related to the upcoming
                           inpatient admission. We made this determination on the basis of a
                           match of the first three digits of the admitting, primary, or
                           secondary diagnosis codes for hospital inpatient and outpatient
                           claims.23 We did not match all five digits of the diagnosis codes
                           for two reasons. First, the World Health Organization (the body
                           that develops diagnosis codes) states that the first three digits of a
                           diagnosis code appropriately describe the major disease category,
                           while the fourth and fifth digits provide additional detail and
                           specificity.24 Second, CMS believes that the five-digit match
                           would “impermissibly limit” the number of outpatient services
                           related to an inpatient admission.25 Approximately 50 percent of
                           related outpatient services were identified because the primary
                           diagnosis code on the outpatient claim matched the primary
                           diagnosis code on the inpatient claim. See Appendix A for the
                           number and percentage of each combination of inpatient and
                           outpatient diagnosis code matches included in this dataset.
                  We relied on these four steps, rather than other data in the claims or
                  current CMS policies, to determine whether diagnostic and nondiagnostic
                  services were related to inpatient admissions beyond the DRG window. In
                  the DRG window, CMS considers all diagnostic services to be related to

                  22
                     Multiple line items can be billed on a claim. Each line item represents a unique
                  service.
                  23
                     A match between the first three digits of the admitting, primary, or first-listed
                  secondary diagnosis codes on the inpatient claim and the first three digits of the primary
                  or first-listed secondary diagnosis codes on the outpatient claim were classified as related
                  for this analysis.
                  24
                     World Health Organization, International Statistical Classification of Diseases and
                  Related Health Problems 10th Revision Volume 2 Instruction Manual, ch. 6.8.

                  25
                     Prior to June 2010, CMS used a five-digit match to determine whether nondiagnostic 

                  services were related to an inpatient admission. 76 Fed. Reg. 51476, 51707 

                  (August 18, 2011). 


Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                     7
                  the inpatient admission. Additionally, in the DRG window, CMS
                  considers nondiagnostic services to be related to an inpatient admission
                  unless hospitals indicate that a service is unrelated using a specific code on
                  the claim. Hospitals do not use this code outside the DRG window.
                  We ultimately identified 50,475 related outpatient services provided at
                  settings owned by admitting hospitals and matched them to 5,662 inpatient
                  admissions. These inpatient admissions represent 5 percent of all
                  admissions in our sample.
                  Identifying related outpatient services provided at affiliated hospitals. We
                  used the steps previously described to identify related outpatient services
                  provided at affiliated hospitals outside the DRG window, with the
                  following exceptions:
                       1.	 We used chain ownership information provided in each hospital’s
                           FY 2011 cost report to identify groups of affiliated hospitals. We
                           considered hospitals to be affiliated with one another if they
                           provided the name and address of the same chain owner.
                       2.	 In step 2, we did not limit our matches to services delivered 4 or
                           more days prior to the admissions. Rather, we included services
                           provided on the date of admission and on the 14 days prior to
                           admission (or, all services delivered within the timeframe of the
                           DRG window, as well as during the 11 days prior to the start of the
                           DRG window).
                       3.	 In step 3, we matched hospital identification numbers that were in
                           the same group of affiliated hospitals, instead of using exact
                           matches of the hospital identification numbers to find settings
                           owned by admitting hospitals. We excluded exact matches so that
                           settings owned by admitting hospitals were not included in this
                           analysis.
                  FY 2011 cost reports were not available for 249 of the 4,029 hospitals in
                  our sample. We considered each of these hospitals as not belonging to an
                  affiliated group. Of the remaining 3,780 hospitals in our sample,
                  2,135 reported being owned by 1 of 326 separate chain owners.
                  We ultimately identified 10,929 related outpatient services provided at
                  affiliated hospitals and matched them to 790 inpatient admissions. These
                  inpatient admissions represent 0.6 percent of all admissions in our sample.
                  Approximately 54 percent of related outpatient services were identified
                  because the primary diagnosis code on the outpatient claim matched the
                  primary diagnosis code on the inpatient claim. See Appendix A for the
                  number and percentage of each combination of inpatient and outpatient
                  diagnosis code matches included in this dataset.

Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)         8
                  Number of related outpatient services provided outside the DRG window
                  at settings owned by admitting hospitals and at affiliated hospitals. Using
                  the matched dataset described above, we counted the number of related
                  outpatient services to calculate the number of services provided at settings
                  owned by admitting hospitals on the 11 days preceding the DRG window
                  and at affiliated hospitals on the 14 days preceding the inpatient
                  admission. We calculated point estimates and 95-percent confidence
                  intervals to make population estimates from the sample counts for:
                           1.	 the total number of related services provided at settings owned
                               by admitting hospitals during the 11 days preceding the DRG
                               window;
                           2.	 the total number of related services provided at settings owned
                               by admitting hospitals on each of the 11 days preceding the
                               DRG window;
                           3.	 the total number of related services provided at affiliated
                               hospitals during the time period of the DRG window (the day
                               of the inpatient admissions and the 3 days prior);
                           4.	 the total number of related services provided at affiliated
                               hospitals on each day covered by the DRG window, including
                               the day of the inpatient admissions and the day immediately
                               preceding the inpatient admissions, and on the 2nd and 3rd days
                               preceding the inpatient admissions;
                           5.	 the total number of related services provided at affiliated
                               hospitals during the 11 days preceding the DRG window; and
                           6.	 the total number of related services provided at affiliated
                               hospitals during both the timeframe of the DRG window and
                               during the 11 days preceding the DRG window.
                  We present point estimates and confidence intervals for multiple days to
                  increase the precision of these estimates, as the sample sizes for some
                  individual days were too small to calculate reliable estimates.
                  Amounts that Medicare and beneficiaries paid for related outpatient
                  services provided at settings owned by admitting hospitals and at affiliated
                  hospitals. Using the matched dataset described above, we summed
                  Medicare payments to providers to calculate the amount Medicare paid for
                  related outpatient services. These related outpatient services were
                  provided at settings owned by admitting hospitals on the 11 days
                  preceding the DRG window or at affiliated hospitals on the days included
                  in the DRG window and the 11 days preceding the DRG window.



Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)      9
                  Similarly, we summed beneficiary deductible and coinsurance payments to
                  providers to calculate the amount beneficiaries paid for related outpatient
                  services provided at settings owned by admitting hospitals on the 11 days
                  preceding the DRG window or at affiliated hospitals on the days included
                  in the current DRG window and the 11 days preceding the DRG window.
                  We calculated 95-percent confidence intervals for figures in the six
                  scenarios described previously.
                  Types of related outpatient services provided at settings owned by
                  admitting hospitals and at affiliated hospitals. We used the matched
                  dataset described above and a list of diagnostic services from CMS to
                  classify services as diagnostic or nondiagnostic. Then, we counted the
                  number of each type of service provided at settings owned by admitting
                  hospitals during the 11 days preceding the DRG window and at affiliated
                  hospitals during the timeframe of the current DRG window, as well as
                  during the 11 days preceding the DRG window. Finally, we calculated
                  95-percent confidence intervals for figures in the six scenarios described
                  previously.
                  Additionally, we grouped the Healthcare Common Procedures Coding
                  System (HCPCS) codes into Berenson-Eggers Type of Service (BETOS)
                  categories. 26 We then summed the number of services in each BETOS
                  category to identify the most common types of diagnostic and
                  nondiagnostic services provided at settings owned by admitting hospitals
                  on the 11 days preceding the DRG window and at affiliated hospitals on
                  the days included in the current DRG window, as well as on the 11 days
                  preceding the DRG window.
                  Limitations
                  We likely underestimated the number of services provided outside the
                  DRG window. This happened for three reasons. First, as previously
                  stated, we excluded physicians’ offices owned by admitting hospitals from
                  our analysis. Second, we were likely unable to identify all settings owned
                  by admitting hospitals. CMS staff have acknowledged that there may be
                  instances when a hospital outpatient setting is owned by the admitting
                  hospital but bills using a separate identification number. Third, we may
                  not have identified all related outpatient services by matching diagnosis
                  codes on the inpatient and outpatient claims. We did not perform a
                  medical record review on the claims in our sample to ensure that we had
                  identified all related outpatient services provided outside the DRG
                  window.


                  26
                     HCPCS codes are used to describe outpatient services on claims. BETOS categories
                  are used to group similar types of HCPCS codes into broad classes of services.

Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                 10
                  We may also have included some services in our analysis that were not
                  related to the inpatient admission. We believe that our diagnosis code
                  matching criteria resulted primarily in the identification of services that
                  were related to the inpatient admission. However, as mentioned
                  previously, we did not perform a medical record review on the services
                  included in this analysis to confirm that the matching successfully
                  identified related services in all cases. The number of services that we
                  excluded from our analysis likely outweighs the number of nonrelated
                  services that we may have included.
                  Finally, we likely underestimated the number of services that were
                  provided at affiliated hospitals. FY 2011 cost reports were not available
                  for 249 of the 4,029 hospitals in our sample. We were unable to determine
                  whether these hospitals were affiliated with any other hospitals.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)         11
                  FINDINGS
                  Medicare and beneficiaries could realize substantial
                  savings if the DRG window were expanded
                  If the DRG window were expanded to include more days preceding the
                  inpatient admission, Medicare and beneficiaries could realize substantial
                  saving by no longer paying for some outpatient services related to
                  inpatient admissions. During the 11 days prior to the DRG window in
                  2011, Medicare and beneficiaries paid an estimated $263 million for an
                  estimated 4.3 million services provided at outpatient settings owned by
                  admitting hospitals. See Figure 3 for per-day estimates of related services
                  provided at settings owned by admitting hospitals. Additionally, see
                  Appendix B for estimates of the number of services provided, the number
                  of diagnostic and nondiagnostic services provided, and the amounts paid
                  by Medicare and beneficiaries for related outpatient services provided at
                  settings owned by admitting hospitals during the 11 days prior to the DRG
                  window in 2011.

                  Figure 3: Estimated Number of Related Services Provided at Settings
                  Owned by Admitting Hospitals During the 11 Days Prior to the DRG
                  Window

                   700,000

                   600,000

                   500,000

                   400,000
                                                                                               DRG WINDOW



                   300,000

                   200,000

                   100,000

                           ‐
                                   11 10        9     8      7     6     5     4   3   2   1
                                                    Days Prior to the DRG Window


                  Source: OIG analysis of inpatient and outpatient claims, 2013.

                  Medicare and beneficiaries would likely realize the highest cost savings
                  during the 4 days immediately preceding the start of the DRG window.
                  During the first 4 days preceding the DRG window, Medicare spent an

Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                     12
                  estimated average of $24 million per day for related outpatient services,
                  compared to an estimated average of $15.9 million per day for services
                  provided on the remaining days. Similarly, beneficiaries spent an
                  estimated average of $6.5 million per day for related outpatient services
                  provided on the 4 days immediately preceding the DRG window,
                  compared to an estimated average of $4.3 million per day for services
                  provided on the remaining days. See Table 1 for the point estimates and
                  confidence intervals for the amounts Medicare and beneficiaries spent on
                  the first 4 days compared to the remaining days preceding the DRG
                  window. Additionally, see Figure 4 for estimates of per-day Medicare and
                  beneficiary payments for related services provided at settings owned by
                  admitting hospitals.


                  Table 1: Estimated Average Daily Amounts Paid by Medicare and
                  Beneficiaries for Related Services Provided at Settings Owned by
                  Admitting Hospitals During the 11 Days Prior to the DRG Window

                                                 First 4 days immediately prior to              Remaining days prior to the DRG
                                                                the DRG window                                           window

                                                                      95% confidence                              95% confidence
                  Amount paid by               Point estimate                                   Point estimate
                                                                             interval                                    interval

                                                                         $21,270,201–                               $14,462,994–
                  Medicare                        $23,900,828*                                    $15,881,926*
                                                                          $26,531,456                                $17,300,859

                                                                           $5,931,567–                               $3,953,269–
                  Beneficiaries                    $6,494,965*                                      $4,286,652*
                                                                            $7,058,364                                $4,620,036

                  Source: OIG analysis of inpatient and outpatient claims, 2013. 


                  *These point estimates are significantly different at the 95-percent confidence level.





Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                        13
                  Figure 4: Estimated Amounts Paid by Medicare and Beneficiaries for
                  Related Services Provided at Settings Owned by Admitting Hospitals
                  During the 11 Days Prior to the DRG Window



                   $30,000,000

                   $25,000,000

                   $20,000,000




                                                                                                       DRG WINDOW
                   $15,000,000

                   $10,000,000

                    $5,000,000

                               $0
                                       11 10       9     8     7     6     5       4   3   2   1
                                                   Days Prior to the DRG Window                    Medicare paid
                                                                                                   Beneficiaries paid

                  Source: OIG analysis of inpatient and outpatient claims, 2013.




                  Medicare and beneficiaries paid more for related nondiagnostic services
                  than for diagnostic services during the 11 days prior to the DRG window
                  even though beneficiaries received more related diagnostic services during
                  that period. Of the estimated $263 million Medicare and beneficiaries
                  paid, an estimated $180 million was for 1.4 million related nondiagnostic
                  services. Examples of such services include the administration of drugs,
                  minor procedures, and emergency room or office visits. The remaining
                  $83 million was for 2.9 million related diagnostic services. Examples of
                  these services include laboratory tests, electrocardiograms, and imaging.
                  See Table 2 for the point estimates and confidence intervals for the
                  number of services received and amounts paid by Medicare and
                  beneficiaries for diagnostic and nondiagnostic services.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                 14
                  Table 2: Estimated Services Received and Amounts Paid by Medicare and
                  Beneficiaries for Diagnostic and Nondiagnostic Services Provided at
                  Settings Owned by Admitting Hospitals During the 11 Days Prior to the
                  DRG Window

                                                                                                    Amounts paid by Medicare
                                                  Services received by beneficiaries
                                                                                                       and beneficiaries

                                                                                                                            95%
                                                                          95% confidence                   Point
                                                  Point estimate                                                     confidence
                                                                                 interval               estimate
                                                                                                                        interval

                                                                                 4,149,200–                        $244,474,290–
                   All services                          4,315,769                                 $262,763,221
                                                                                  4,482,339                         $281,052,151

                                                                                 2,831,977–                         $77,983,456–
                   Diagnostic services                  2,940,366*                                 $82,819,478*
                                                                                  3,048,756                          $87,655,500

                   Nondiagnostic                                                 1,296,801–                        $163,120,038–
                                                        1,375,403*                                $179,943,743*
                   services                                                       1,454,005                         $196,767,447

                   Source: OIG analysis of inpatient and outpatient claims, 2013.

                   *These point estimates are significantly different at the 95-percent confidence level.




                  Medicare and beneficiaries could realize savings if the
                  DRG window were applied to other hospital ownership
                  structures
                  If the current, 3-day DRG window policy were applied to groups of
                  affiliated hospitals, Medicare and beneficiaries could save millions by no
                  longer paying for some outpatient services that are related to inpatient
                  admissions. During the timeframe of the current DRG window (the date
                  of the inpatient admission and the preceding 3 days), Medicare and
                  beneficiaries paid an estimated $45 million for an estimated
                  777,000 related outpatient services provided at affiliated hospitals. See
                  Appendix C for estimates of the number of services provided, the number
                  of diagnostic and nondiagnostic services provided, and the amounts paid
                  by Medicare and beneficiaries for those services provided at affiliated
                  hospitals during the timeframe of the current DRG window in 2011.
                  Most of the services provided at affiliated hospitals were provided on the
                  day of the inpatient admission or on the day immediately preceding the
                  inpatient admission. On those 2 days, Medicare and beneficiaries paid an
                  estimated $42 million for an estimated 723,000 services. See Table 3 for
                  the point estimates and confidence intervals for the amounts spent by
                  Medicare and beneficiaries on the first 2 days compared to the remaining
                  days preceding the inpatient admission.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                        15
                  Table 3: Estimated Average Daily Amounts Paid by Medicare and
                  Beneficiaries for Related Services Provided at Affiliated Hospitals During
                  the Timeframe of the Current DRG Window
                                              The day of the inpatient admission
                                                                                                The remaining 2 days in the DRG
                                                        and the day immediately
                                                                                                             window timeframe
                                                                     preceding it

                                                                     95% confidence                              95% confidence
                                               Point estimate                                  Point estimate
                                                                            interval                                    interval

                  Amount paid by
                                                                         $37,736,578–                               $1,779,369–
                  Medicare and                    $42,448,200*                                     $2,858,334*
                                                                          $47,159,823                                $3,937,299
                  beneficiaries

                  Source: OIG analysis of inpatient and outpatient claims, 2013.

                  *These point estimates are significantly different at the 95-percent confidence level.



                  Medicare and beneficiaries paid more for related nondiagnostic services
                  than for diagnostic services during the timeframe of the current DRG
                  window, even though beneficiaries received more diagnostic services
                  during that period. Of the estimated $45 million that Medicare and
                  beneficiaries paid, an estimated $27 million was for 293,000 related
                  nondiagnostic services. Examples of such services provided during these
                  4 days include minor procedures, the administration of drugs, and
                  emergency room or office visits. The remaining $18 million was for
                  484,000 related diagnostic services. Examples of these services include
                  laboratory tests, electrocardiograms, and imaging. See Table 4 for the
                  point estimates and confidence intervals for the number of services
                  received and the amounts spent by Medicare and beneficiaries for
                  diagnostic and nondiagnostic services provided at affiliated hospitals.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                       16
                  Table 4: Estimated Services Received and Amounts Paid by Medicare and
                  Beneficiaries for Diagnostic and Nondiagnostic Services Provided at
                  Affiliated Hospitals During the Timeframe of the Current DRG Window

                                                                                                     Amounts paid by Medicare
                                                    Services received by beneficiaries
                                                                                                        and beneficiaries

                                                                                                                               95%
                                                                            95% confidence                     Point
                                                    Point estimate                                                      confidence
                                                                                   interval                 estimate
                                                                                                                           interval

                                                                                                                       $40,366,899–
                   All services                              777,223        702,135–852,312          $45,306,534
                                                                                                                        $50,246,170

                                                                                                                       $16,084,467–
                   Diagnostic services                      484,461*        436,511–532,410         $18,465,170*
                                                                                                                        $20,845,873

                   Nondiagnostic                                                                                       $23,722,530–
                                                            292,763*        262,517–323,009         $26,841,365*
                   services                                                                                             $29,960,199

                   Source: OIG analysis of inpatient and outpatient claims, 2013.

                   *These point estimates are significantly different at the 95-percent confidence level.



                  Finally, Medicare and beneficiaries would realize even more savings if an
                  expanded DRG window were applied to groups of affiliated hospitals. In
                  2011, an estimated 157,000 related outpatient services were provided at
                  hospitals other than the admitting hospitals during the 11 days preceding
                  the DRG window. These other hospitals were affiliated with the admitting
                  hospitals. Medicare and beneficiaries paid an estimated $10 million for
                  these services. See Appendix C for a description of the number of services
                  provided, the number of diagnostic and nondiagnostic services provided,
                  and the amounts paid by Medicare and beneficiaries for those services
                  provided at affiliated hospitals during the 11 days prior to the DRG
                  window.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                          17
                  CONCLUSION AND RECOMMENDATIONS
                  The DRG window was intended to ensure that Medicare and beneficiaries
                  were not paying the same organization twice for preadmission services
                  that had been included in the DRG payment. However, the DRG window
                  does not capture all preadmission services, as Medicare and beneficiaries
                  paid the same organizations for millions of services that were related to
                  inpatient admissions during the 11 days prior to the start of the DRG
                  window in 2011. The DRG window may not have captured these related
                  services because of evolving medical practices (e.g., performing
                  preadmission services further from the date of admission to allow for
                  treatment of any issues discovered).
                  Medicare and beneficiaries are paying admitting hospitals for related
                  outpatient services provided on the days immediately preceding the start
                  of the DRG window. In 2011, Medicare and beneficiaries paid
                  $263 million for related outpatient services provided at settings owned by
                  admitting hospitals during the 11 days prior to the DRG window.
                  Medicare and beneficiaries are also paying organizations that own groups
                  of affiliated hospitals for related outpatient services provided at hospitals
                  affiliated with, but not owned by, admitting hospitals. In 2011, Medicare
                  and beneficiaries paid $55 million for related outpatient services provided
                  at affiliated hospitals both during the timeframe of the current DRG
                  window and during the 11 days prior.
                  If the DRG window policy were expanded to include more days, or
                  expanded to include other hospital ownership structures, the policy would
                  cover more related outpatient services. As a result, Medicare and
                  beneficiaries could save money. To better ensure that the DRG window
                  covers more related outpatient services, we recommend that CMS:
                  Seek legislative authority to expand the DRG window to
                  include additional days prior to the inpatient admission
                  Medicare and beneficiaries would realize millions of dollars in savings for
                  each additional day that the DRG window covered. In 2011, more than
                  4.3 million related outpatient services were provided at settings owned by
                  admitting hospitals in the 11 days preceding the DRG window. The
                  majority of those services were performed during the 4 days immediately
                  preceding the start of the DRG window.
                  Although CMS has concurred with previous OIG recommendations to
                  include additional days in the DRG window, CMS has also expressed
                  concern that doing so may compromise beneficiaries’ quality of care—
                  specifically, that adding more days to the DRG window may incentivize
                  providers to perform preadmission services too far in advance of the

Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)       18
                  admission date to be useful. However, guidance from the medical
                  community suggests performing many preadmission services weeks or
                  months in advance of an admission so that any problems can be identified
                  and corrected. This guidance suggests that expanding the DRG window
                  may not compromise the quality of care Medicare beneficiaries receive.
                  Seek legislative authority to expand the DRG window to
                  include other hospital ownership arrangements, such as
                  affiliated hospital groups
                  Almost half of all acute-care hospitals in the United States belong to a
                  group of affiliated hospitals. However, services provided at affiliated
                  hospitals are not covered by the current DRG window. CMS should
                  expand the DRG window to treat affiliated hospital groups the same as
                  settings owned by admitting hospitals. This would help to ensure that
                  Medicare and beneficiaries are not paying the same organization—here,
                  the chain owner of the affiliated hospital group—separately for related
                  outpatient services.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)      19
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS did not concur with our first recommendation, to seek legislative
                  authority to expand the DRG window to include additional days prior to
                  the inpatient admission. CMS noted that adopting this recommendation
                  would require legislation and that such a proposal is not currently included
                  in the FY 2014 President’s Budget. CMS also noted that we did not
                  specify the number of days that the DRG window should be expanded.
                  CMS also did not concur with our second recommendation, to seek
                  legislative authority to expand the DRG window to include other hospital
                  ownership arrangements. CMS noted that adopting this recommendation
                  would require legislation and that such a proposal is not included in the
                  FY 2014 President’s Budget.
                  We continue to recommend that CMS draft, and submit for review, two
                  legislative proposals—one that expands the DRG Window to include
                  additional days and one that expands the DRG Window to include other
                  hospital ownership arrangements—for consideration for inclusion in
                  future budget and legislative agendas. While CMS cannot dictate what
                  legislative proposals are included in the President’s Budget, CMS does
                  have the authority to develop legislative proposals for Medicare. We look
                  forward to CMS’s final management decision in light of this clarification
                  of the intent of our recommendations.
                  We leave the number of days that should be included in an expanded DRG
                  window to CMS’s discretion. Any number of days added to the DRG
                  window would likely result in savings to Medicare and beneficiaries.
                  For the full text of CMS’s comments, see Appendix D.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)     20
                  APPENDIX A
                  Types of Inpatient and Outpatient Diagnosis Code Matches


                  Table A-1: Types of Inpatient and Outpatient Diagnosis Code Matches in the Datasets Used To
                  Identify Related Services Performed Outside of the DRG Window

                                                          Dataset used to identify related services performed outside the DRG window at:


                   Type of match (inpatient                Settings owned by the admitting          Settings affiliated with the admitting
                   to outpatient)                                                hospitals                                       hospitals


                   Primary to primary                                               25,183 (50%)                             5,888 (54%)

                   Primary to secondary                                             12,556 (25%)                             1,531 (14%)

                   Admitting to primary                                              7,473 (15%)                             2,411 (22%)

                   Admitting to secondary                                             3,478 (7%)                                829 (8%)

                   Secondary to primary                                                754 (2%)                                 161 (2%)

                   Secondary to secondary                                             1,031 (2%)                                109 (2%)


                   Source: OIG analysis of inpatient and outpatient claims, 2013.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                           21
                       APPENDIX B
                       Related Outpatient Services Provided at Settings Owned by Admitting Hospitals

Table B-1: Related Outpatient Services Provided at Settings Owned by Admitting Hospitals During the 11 Days
Prior to the DRG Window
                                                                                                                              Total number of
                                                                                                          Total number of
                        Total number of                                              Amount paid by                                   related
                                                 Amount paid by Medicare                                related diagnostic
                        related services                                               beneficiaries                           nondiagnostic
                                                                                                                  services
                                                                                                                                     services

                         Point estimate                                               Point estimate       Point estimate       Point estimate
                                                            Point estimate
Day          N         (95% confidence                                              (95% confidence      (95% confidence      (95%confidence
                                                  (95% confidence interval)
                               interval)                                                    interval)            interval)            interval)

                                514,045                        $26,327,570                 $6,108,497             353,213              160,831
1          785
                      (466,190–561,899)          ($18,514,191–$34,140,949)    ($5,129,731–$7,087,263)   (318,918–387,509)    (141,600–180,063)

                                452,824                        $19,876,918                 $5,631,796             305,588              147,236
2          749
                      (410,321–495,328)          ($16,794,375–$22,959,462)    ($4,716,881–$6,546,710)   (275,909–335,267)    (128,018–166,455)

                                502,587                        $21,547,899                 $5,994,013             357,831              144,757
3          863
                      (459,311–545,864)          ($18,024,613–$25,071,184)    ($5,028,420–$6,959,607)   (325,894–389,768)    (126,190–163,323)

                                602,284                        $27,850,926                 $8,245,554             426,490              175,794
4          956
                      (553,204–651,364)          ($23,503,372–$32,198,481)    ($6,883,178–$9,607,930)   (390,109–462,870)    (154,691–196,898)

                                381,087                        $18,512,217                 $5,008,833             253,089              127,998
5          659
                      (342,380–419,795)          ($15,058,849–$21,965,585)    ($4,095,940–$5,921,725)   (226,432–279,747)    (108,873–147,124)

                                302,938                        $13,475,968                 $3,868,070             198,709              104,228
6          488
                      (266,754–339,121)          ($11,094,171–$15,857,766)    ($3,116,785–$4,619,356)   (173,476–223,943)     (87,649–120,808)

                                276,517                        $11,619,738                 $3,072,185             181,609               94,908
7          486
                      (243,181–309,854)           ($9,782,853–$13,456,624)    ($2,557,819–$3,586,551)   (158,200–205,018)     (80,409–109,408)

                                275,577                        $13,531,657                 $3,860,863             181,780               93,797
8          478
                      (243,029–308,125)          ($10,706,588–$16,356,726)    ($3,074,076–$4,647,650)   (158,735–204,825)     (79,134–108,460)

                                274,379                        $12,888,968                 $3,534,244             194,263               80,116
9          510
                      (242,567–306,192)           ($9,990,899–$15,787,037)    ($2,811,478–$4,257,009)   (170,281–218,245)      (67,253–92,980)

                                354,923                        $17,988,444                 $4,905,350             234,193              120,730
10         595
                      (317,271–392,576)          ($14,221,441–$21,755,448)    ($4,034,026–$5,776,675)   (208,026–260,360)    (103,038–138,423)

                                378,608                        $23,156,489                 $5,757,020             253,602              125,006
11         625
                      (340,480–416,735)          ($17,513,902–$28,799,076)    ($4,777,269–$6,736,772)   (226,549–280,656)    (107,427–142,584)

Source: OIG analysis of inpatient and outpatient claims, 2013.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                       22
Table B-2: Summary of Related Outpatient Services Provided at Settings Owned by Admitting Hospitals During
the 11 Days Prior to the DRG Window

                             Total number of         Amount paid by Medicare and        Total number of related     Total number of related
                             related services                       beneficiaries          diagnostic services      nondiagnostic services


                              Point estimate
                                                                     Point estimate              Point estimate              Point estimate
Day            n            (95% confidence
                                                           (95% confidence interval)   (95% confidence interval)   (95% confidence interval)
                                    interval)

All                                4,315,769                          $262,763,221                     2,940,366                   1,375,403
          5,279
days                   (4,149,200–4,482,339)           ($244,474,290–$281,052,151)         (2,831,977–3,048,756)       (1,296,801–1,454,005)

Source: OIG analysis of inpatient and outpatient claims, 2013.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                     23
                       APPENDIX C
                       Related Outpatient Services Provided at Affiliated Hospitals

Table C-1: Related Outpatient Services Provided at Affiliated Hospitals During the Timeframe of the Current DRG
Window

                                          Total number of          Amount paid by Medicare         Total number of related    Total number of related
                                          related services                and beneficiaries           diagnostic services     nondiagnostic services


                                           Point estimate
                                                                             Point estimate                Point estimate              Point estimate
Day                            n         (95% confidence
                                                                   (95% confidence interval)     (95% confidence interval)   (95% confidence interval)
                                                 interval)

Inpatient Admission                               723,014                       $42,448,200                       449,404                     273,610
                            509
and DRG day 1                           (651,598–794,430)         ($37,736,578–$47,159,823)             (403,816–494,992)           (244,834–302,386)

DRG                                                 54,209                        $2,858,334                       35,056                      19,153
                              67
days 2-3                                   (36,008–72,410)           ($1,779,369–$3,937,299)              (23,282–46,830)             (11,727–26,578)

Source: OIG analysis of inpatient and outpatient claims and cost reports, 2013.




Table C-2: Summary of Related Outpatient Services Provided at Affiliated Hospitals During the Timeframe of the
Current DRG Window

                          Total number of             Amount paid by Medicare and                Total number of related      Total number of related
                          related services                           beneficiaries                  diagnostic services       nondiagnostic services


                           Point estimate
                                                                     Point estimate                      Point estimate                Point estimate
Day          n           (95% confidence
                                                           (95% confidence interval)           (95% confidence interval)     (95% confidence interval)
                                 interval)

All                              777,223                                $45,306,534                             484,461                       292,763
           551
days                   (702,135–852,312)                  ($40,366,899–$50,246,170)                   (436,511–532,410)             (262,517–323,009)

Source: OIG analysis of inpatient and outpatient claims and cost reports, 2013.




Table C-3: Summary of Related Outpatient Services Provided at Affiliated Hospitals During the 11 Days Prior to
the DRG Window

                   Total number of related          Amount paid by Medicare and                Total number of related        Total number of related
                                 services                          beneficiaries                  diagnostic services         nondiagnostic services


                             Point estimate
                                                                   Point estimate                    Point estimate                    Point estimate
Day          n             (95% confidence
                                                         (95% confidence interval)         (95% confidence interval)         (95% confidence interval)
                                   interval)

All                                157,240                              $9,561,618                             98,671                          58,570
           223
days                     (124,627–189,853)                ($7,225,066–$11,898,169)                   (79,129–118,212)                 (41,439–75,700)

Source: OIG analysis of inpatient and outpatient claims and cost reports, 2013.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                               24
Table C-4: Summary of Related Outpatient Services Provided at Affiliated Hospitals During the Timeframe of the
DRG Window and the 11 Days Prior to the DRG Window

                               Total number of related          Amount paid by Medicare and       Total number of related     Total number of related
                                             services                          beneficiaries         diagnostic services      nondiagnostic services



                                       Point estimate                          Point estimate              Point estimate              Point estimate
Day                  n
                             (95% confidence interval)               (95% confidence interval)   (95% confidence interval)   (95% confidence interval)


                                                934,463                            $54,868,152                    583,131                     351,332
All days          741
                                    (849,140–1,019,787)              ($49,233,160–$60,503,144)          (529,478–636,784)           (314,825–387,840)

Source: OIG analysis of inpatient and outpatient claims and cost reports, 2013.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                            25
                  APPENDIX D
                  Agency Comments



                      .,..,.....,'«s ...



                     ( - / - DEPARTMENT OF HEALTH & HUMAN SERVICES                                                   Centers for Medicare & Medicaid Services


                                                                                                                     Administrator
                                                                                                                     Washington, DC 20201




                                           DATE:            DEC 13 2013

                                           TO: 	          Daniel R. Levinson
                                                          Inspectw General
                                                                              /S/
                                           FROM: 	       Mal'i.lyn TaVenner
                                                         Administrator

                                           SUBJECT: 	Office of Inspector General (OIG) Draft Report: "Medicare and 

                                                     Beneficiaries Could Realize Substantial Savings If the Diagnosis Related 

                                                     Group Window (DRG) Were Expanded, OEI-05-12-00480" 


                                           The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                                           comment on above subject OIG Draft Report. OIG's objective for this report was to identify
                                           how much money Medicare and its beneficiaries paid in 2011 for services related to inpatient
                                           admissions but not captured by the current DRG window policy. Under the current DRG
                                           window, Medicare's hospital inpatient prospective payment system includes payment for all
                                           diagnostic services and related non-diagnostic services provided by the hospital (or by an entity
                                           wholly owned or operated by the hospital) to the patient during the 3-days immediately
                                           preceding the date of the patient's admission. The study calculated the potential savings
                                           associated with expanding the 3-day payment window to include more days preceding the
                                           inpatient admission and expanding it to affiliated hospitals.

                                           OIG determined that in 2011, Medicare and beneficiaries paid $263 million for related outpatient
                                           services provided at settings owned by admitting hospitals during the 11-days prior to the DRG
                                           window. Medicare and beneficiaries are also paying organizations that own groups of affiliated
                                           hospitals for related outpatient services provided at hospitals affiliated with, but not owned by,
                                           admitting hospitals. In 2011, Medicare and beneficiaries paid $55 million for related outpatient
                                           services provided at affiliated hospitals both during the timeframe of the current DRG window
                                           and during the 11-days prior.

                                           The O!G recommendations and CMS responses to those recommendations are discussed below.

                                           OIG Recommendation

                                           The OIG recommends that CMS seek legislative authority to expand the DRG window to include
                                           additional days prior to the inpatient admission.

                                           CMS Response

                                           The CMS does not concur with this recommendation. As OIG's recommendation indicates, 

                                           adopting this recommendation would require legislation and such a proposal is not currently 





Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)                                                                  26
Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)   27
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Ann Maxwell, Regional Inspector General for
                  Evaluation and Inspections in the Chicago regional office; Thomas Komaniecki, Deputy
                  Regional Inspector General; and Laura Kordish, Deputy Regional Inspector General.
                  Lisa Minich served as the team leader for this study, and Beth McDowell served as the lead
                  analyst. Other Office of Evaluation and Inspections staff from the Chicago regional office who
                  conducted the study include Elliot Curry and Brian Jordan. Central office staff who provided
                  support include Kevin Farber, Kevin Manley, Christine Moritz, and Sherri Weinstein.
                  Consolidated Data Analysis Center staff who provided support include Mara Werner.




Medicare and Beneficiaries Could Save If the DRG Window Were Expanded (OEI-05-12-00480)              28
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
